Department of Homeland Security
   Ofﬁce of Inspector General

             DHS Needs to Improve the Security 

               Posture of Its Cybersecurity 

                    Program Systems 





OIG-10-111                                         August 2010
                                                             Office ofInspector General

                                                              u.s. Department of Homeland Security
                                                              Washington, DC 25028




                                                              Homeland
                                                              Security
                                       AUG 182010
                                          Preface

The Department of Homeland Security Office ofInspector General was established by
the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses whether physical and logical access controls are in place to secure
the cybersecurity program systems utilized by the National Cyber Security Division and
to ensure the integrity and reliability ofthe information it disseminates to the public and
private sectors. It is based on interviews with key management officials, as well as
system and contractor personnel, physical security evaluations, system security
vulnerability assessments, and reviews of applicable documentation.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                        ~fi!l
                                          Assistant Inspector General, IT Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................6 


     System and Physical Security Controls Implemented ...................................................6 


     Security Vulnerabilities Need to Be Addressed on the MOE........................................7 

     Recommendations........................................................................................................11 

     Management Comments and OIG Analysis ................................................................11 


     FISMA Requirements Are Not Being Met ..................................................................12 

     Recommendations........................................................................................................15 

     Management Comments and OIG Analysis ................................................................15 


     System and Program Documentation Has Not Been Reviewed or Approved.............16 

     Recommendations........................................................................................................17 

     Management Comments and OIG Analysis ................................................................17 


     NCSD Is Not Fully Complying with DHS Policies.....................................................19 

     Recommendations........................................................................................................20 

     Management Comments and OIG Analysis ................................................................21 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................23 

     Appendix B:           Management Comments to the Draft Report .......................................25 

     Appendix C:           Major Contributors to this Report........................................................29 

     Appendix D:           Report Distribution ..............................................................................30 


Abbreviations
     C&A                 Certification and Accreditation 

     CNCI                Comprehensive National Cybersecurity Initiative

     DHS                 Department of Homeland Security 

     DISA                Defense Information Systems Agency 

     FISMA               Federal Information Security Management Act 

     FY                  Fiscal Year          

     GAO                 Government Accountability Office 

     HSIN                Homeland Security Information Network 

     IA                  Information Assurance             

     IP                  Internet Protocol           

     ISA                 Interconnection Security Agreement         

     IT                  Information Technology              

MOE       Mission Operating Environment
MOU/A     Memorandum of Understanding/Agreement
NCPS      National Cybersecurity Protection System
NCSD      National Cyber Security Division
NIST      National Institute of Standards and Technology
NPPD      National Protection and Programs Directorate
OIG       Office of Inspector General
OMB       Office of Management and Budget
POA&M     Plan of Action and Milestones
SBCG      Secure Baseline Configuration Guide
SOP       Standard Operating Procedure
SP        Special Publication
SSP       System Security Plan
ST&E      Security Test and Evaluation
STIG      Security Technical Implementation Guide
TAF       Trusted Agent FISMA
TIC       Trusted Internet Connection
US-CERT   United States Computer Emergency Readiness Team
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
           Cyber threats pose a significant risk to economic and national security. In
           response to these threats, the President, legislators, experts, and others
           have characterized cybersecurity, or measures taken to protect a computer
           or computer system against unauthorized access or attack, as a pressing
           national security issue. The National Cyber Security Division (NCSD)
           was established to serve as the national focal point for addressing
           cybersecurity issues in the public and private sectors.

           The United States Computer Emergency Readiness Team (US-CERT),
           created under NCSD, is responsible for compiling and analyzing
           information about cybersecurity incidents and providing timely technical
           assistance to operators of agency information systems regarding security
           incidents. The team provides response support and defense against cyber
           attacks for the federal civil executive branch (.gov); disseminates reasoned
           and actionable cybersecurity information to the public; and facilitates
           information sharing with state and local government, industry, and
           international partners.

           Our audit focused on the security of the systems that US-CERT uses to
           accomplish its cybersecurity mission. Overall, NCSD has implemented
           adequate physical security and logical access controls over the
           cybersecurity program systems used to collect, process, and disseminate
           cyber threat and warning information to the public and private sectors.
           However, a significant effort is needed to address existing security issues
           in order to implement a robust program that will enhance the cybersecurity
           posture of the federal government. To ensure the confidentiality, integrity,
           and availability of its cybersecurity information, NCSD needs to focus on
           deploying timely system security patches to mitigate risks to its
           cybersecurity program systems, finalizing system security documentation,
           and ensuring adherence to departmental security policies and procedures.

           We are making 10 recommendations to the Director, NCSD. NCSD has
           already begun to take the actions to implement them. National Protection
           and Programs Directorate (NPPD)’s response is summarized and
           evaluated in the body of this report and included, in its entirety, as
           Appendix B.




        DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                            Page 1 

Background
                          The Department of Homeland Security (DHS) is responsible for
                          leading the protection and defense of federal civil executive branch
                          networks against cyber threats, and coordinating response to cyber
                          attacks and security vulnerabilities. To secure the Nation’s
                          cyberspace and assets, DHS established NCSD in June 2003.
                          NCSD, which operates within NPPD, is the national focal point for
                          cybersecurity in the public and private sectors. NCSD addresses
                          threats to federal government systems and takes the lead in
                          instituting the objectives of the Comprehensive National
                          Cybersecurity Initiative (CNCI).1 This initiative authorizes DHS,
                          together with the Office of Management and Budget (OMB), to
                          establish minimum operational standards for federal civil executive
                          branch networks so that US-CERT can direct the operation and
                          defense of government connections to the internet.

                          Created in September 2003, US-CERT, one of NCSD’s branches,
                          is charged with protecting the Nation’s information infrastructure
                          by coordinating defense against and response to cyber attacks.
                          US-CERT analyzes data to reduce security threats and
                          vulnerabilities, disseminates cyber threat warning information to
                          promote public awareness of the threats, and coordinates incident
                          response activities. US-CERT utilizes four main information
                          systems to help accomplish its mission:

                              •	 Mission Operating Environment (MOE).
                              •	 National Cybersecurity Protection System (NCPS)
                                 (known operationally as Einstein).
                              •	 Homeland Security Information Network (HSIN)/US-CERT
                                 Portal.
                              •	 NCPS Public Web (www.us-cert.gov).

                          The MOE is the backbone of US-CERT operations. It provides a
                          basic computing environment that allows US-CERT personnel to
                          exchange and access mission-critical security incident data and
                          information system anomalies. The MOE is a secure and
                          stabilized network infrastructure that supports US-CERT program
                          operations, such as email and user access to NCPS Einstein data.



1
  Formalized in January 2008, the CNCI established a multipronged approach for the federal government to
identify current and emerging cyber threats and respond to or proactively address state and non-state
adversaries targeting information systems and infrastructure for exploitation and potential disruption or
destruction.

             DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                 Page 2 

                           Through the NCPS program, US-CERT has established an
                           automated process for collecting, correlating, analyzing, and
                           sharing potential threats and security information across the federal
                           government to improve our Nation’s situational awareness of
                           cybersecurity. In its current state, NCPS Einstein incorporates
                           network intrusion detection technology to help defend federal
                           executive agency information technology (IT) enterprises from
                           potential security attacks.2 NCPS Einstein enables US-CERT to
                           gain increased knowledge of federal executive agency networks
                           and fulfill its mandate to act as a central point of responsibility for
                           improving the network security of the federal government.

                           In November 2007, OMB announced the Trusted Internet
                           Connection (TIC) initiative, which is intended to improve the
                           federal government’s security posture by reducing the number of
                           external internet connections used by the government.3 The TIC
                           initiative aims to reduce and consolidate the number of external
                           connections to create a more clearly defined “cyber border,” and
                           allow for fewer external connections that can potentially be used
                           for malicious attacks. In response to the TIC initiative, Einstein
                           sensors are currently being deployed at the reduced number of
                           internet gateways to more effectively monitor network activity
                           across the federal government. With the exception of the
                           Department of Defense, federal agencies’ participation in NCSD’s
                           Einstein program became mandatory with the implementation of
                           the TIC initiative.

                           There are currently two versions of NCPS Einstein, known as
                           Einstein 1 and Einstein 2.4 Einstein 1 sensors collect network flow
                           information and provide a high-level perspective from which to
                           observe potential malicious activity in the computer network traffic
                           of participating agencies’ networks. The network flow data
                           collected by Einstein sensors is aggregated from all participating
                           departments and agencies, then analyzed to detect network
                           anomalies spanning the federal government. The network flow
                           data collected consists of the following information:




2
  Network intrusion detection technology automates the intrusion detection process. Intrusion detection is 

the process of monitoring the events occurring in a computer system or network and analyzing them for 

possible violations or the imminent threat of violations of computer security policies, acceptable use 

policies, or standard security practices. 

3
  OMB Memorandum M-08-05, Implementation of Trusted Internet Connections (TIC)
 

(November 20, 2007). 

4
  Development of Einstein 1 began in 2003; deployment began in March 2005. Development of
 

Einstein 2 began in January 2008; deployment began in August 2008.
 


              DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                   Page 3 

                                 •	 Source internet protocol (IP) address of the computer that
                                    connects to the federal information system.
                                 •	 Destination IP address.
                                 •	 Port the connection was initiated on by the source computer.
                                 •	 Port the connection was received on by the destination
                                    computer.
                                 •	 Protocol used to transport the data.
                                 •	 Start/end time of the communication.

                            Einstein 2, an updated version of Einstein 1, incorporates network
                            intrusion detection technology capable of alerting US-CERT to the
                            presence of malicious or potentially harmful computer network
                            activity in federal executive department and agency network
                            traffic. Einstein 2’s network intrusion detection technology uses a
                            set of pre-defined signatures based on known malicious network
                            traffic patterns.5 Einstein 3, the next evolution of the program, will
                            be an intrusion prevention system.6 Figure 1 illustrates the
                            functionality of Einstein 1 and Einstein 2, the TIC structure, and
                            MOE access points.




5
  Signatures are specific patterns of network traffic that affect the integrity, confidentiality, or availability
of computer networks, systems, and information. For example, a specific signature might identify a known
computer virus that is designated to delete files from a computer without authorization. Signatures are
derived from numerous sources, such as commercial or public computer security information; incidents
reported to the US-CERT; information from federal partners; or independent in-depth analyses by
US-CERT analysts.
6
  An intrusion prevention system is software that has all the capabilities of an intrusion detection system
and can also attempt to stop possible incidents.

               DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                     Page 4 

Figure 1: Einstein Data Collection Infrastructure & Process




      Within the past year, NCSD has accelerated the deployment of
      its Einstein technology. As of December 31, 2009, Einstein technology
      was deployed and operational on networks at 21 agencies. Einstein 1
      technology, which will be upgraded to Einstein 2 technology once TIC
      deployment at those agencies is complete, is deployed at nine federal
      agencies. Additionally, in the first federal-state partnership of its kind,
      Einstein 1 was deployed on specified Michigan state government networks
      in November 2009. Einstein 2 technology is currently deployed and
      operational at 11 federal agency TIC sites.

      Vulnerability information obtained through the Einstein program is shared
      with stakeholders in the public and private sector through various
      channels, one of which is the HSIN/US-CERT Portal. The
      HSIN/US-CERT Portal provides the necessary network and IT
      infrastructure for US-CERT personnel to share security-related
      information. The portal is a collaborative system that allows for real-time
      alerts, notification, and sensitive information sharing. Finally, the NCPS
      Public Web (www.us-cert.gov) supports US-CERT’s mission by serving

   DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                       Page 5 

           as a communications channel to disseminate technical details of internet
           threats, and guidelines for addressing these threats, to security
           practitioners.

Results of Audit
     System and Physical Security Controls Implemented
           The systems utilized by US-CERT are important in helping NCSD meet
           its mission to protect federal departments and agencies from cyber threats
           and intrusions. It is imperative that adequate logical security controls be
           implemented on the department’s cybersecurity program systems to ensure
           that the integrity and reliability of the information processed, stored, and
           transmitted is not compromised. Physical security controls are needed to
           protect the systems from unauthorized access, misuse, or destruction.
           During our audit, we identified the following:

                •	 Adequate system security controls are implemented on three of
                   US-CERT’s cybersecurity program systems: NCPS Einstein,
                   HISN/USCERT Portal, and NCPS Public Web. No high-risk or
                   critical security vulnerabilities were identified during our
                   vulnerability scans of these systems.

                •	 Interconnection security agreements (ISA) and comprehensive
                   memorandums of understanding/agreement (MOU/A) that define
                   the roles and responsibilities between DHS and participating
                   agencies for the Einstein program have been established. ISAs are
                   vital in protecting the confidentiality, integrity, and availability of
                   the data processed between interconnected IT systems. An ISA
                   supports a separate MOU/A, which defines the general
                   responsibilities for establishing, operating, and securing a
                   connection. Both ISAs and MOAs must be signed and approved
                   prior to the installation of Einstein sensors on a department/agency
                   network.

                •	 Adequate physical security is implemented at the facilities where
                   the cybersecurity program systems are located. For example,
                   smart cards are required to access facilities that house the MOE
                   and NCPS Einstein. Biometric fingerprint scans are required to
                   access the server room housing HSIN/US-CERT Portal equipment.
                   Warning signs are posted informing personnel that the MOE and
                   NCPS Einstein areas are under 24-hour video surveillance, and the
                   server room is monitored. Figure 2 shows examples of the
                   physical security protective measures observed at the contractor’s
                   facility housing the MOE and NCPS Einstein in Florida.

        DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                            Page 6 

Figure 2: Examples of Physical Security Controls




  Server Room Security Camera                      Video Surveillance Monitoring Station




   Server Room Warning Sign                          Server Room Smart Card Reader

      The success of NCSD depends in part on its ability to secure the systems
      used by US-CERT to accomplish its cybersecurity mission. Specifically,
      the confidentiality, integrity, and availability of the information collected,
      processed, and disseminated by US-CERT relies on whether adequate
      security controls have been implemented on DHS’ cybersecurity program
      systems. Although NCSD has implemented adequate physical and logical
      access controls to secure the systems utilized by US-CERT, security-
      related issues must be addressed in order to implement a robust program
      for enhancing the cybersecurity posture of the federal government. For
      example, NCSD must focus its attention on mitigating vulnerabilities on
      the MOE and ensuring compliance with Federal Information Security
      Management Act (FISMA) requirements and DHS IT policies and
      procedures.

Security Vulnerabilities Need to Be Addressed on the MOE
      We identified that the system security controls implemented on NCPS
      Einstein, HISN/USCERT Portal, and NCPS Public Web adequately
      protect the data collected, stored, and disseminated. However, adequate
      security controls have not been implemented on the MOE to protect the



   DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                       Page 7 

                  data processed from unauthorized access, use, disclosure, disruption,
                  modification, or destruction.

                  We conducted technical system security vulnerability scans of the MOE in
                  Florida and Virginia; NCPS Einstein in Florida; HSIN/US-CERT Portal in
                  Virginia; and NCPS Public Web in Pennsylvania. We used Nessus,
                  vulnerability scanning software, to conduct our assessments of the system
                  controls on the cybersecurity program systems at the audit locations we
                  visited.7 The vulnerabilities identified were classified into high-,
                  medium-, and low-risk categories, based on the severity of the
                  vulnerabilities and damage they could inflict on the systems. Figure 3
                  shows the number of unique high-, medium-, and low-risk vulnerabilities
                  identified by the system.

         Figure 3: Unique Vulnerabilities by System and Severity




                  Our scans identified 671 unique vulnerabilities. Existing vulnerabilities
                  can compromise the confidentiality, integrity, and availability of sensitive
                  cybersecurity data. Medium and low-risk vulnerabilities do not pose
                  significant risks; therefore, our analysis of the scan results focused on the
                  202 unique high risk vulnerabilities identified on the MOE. As previously
                  reported, no significant IT security vulnerabilities were identified from our
                  scans of the NCPS Einstein, HSIN/US-CERT Portal, or NCPS Public Web
                  computers.

                  Overall, we identified 1,085 instances of high-risk vulnerabilities on the
                  MOE; 202 were unique across 174 MOE computers scanned. The
                  majority of the high-risk vulnerabilities involved application and operating
                  system and security software patches that had not been deployed on MOE
                  computer systems located in Virginia.

7
 Nessus (Professional Feed) is an up-to-date, remote vulnerability scanner for Windows, Linux, Berkeley
Software Distribution, Solaris, Apple, and other systems. It is multithreaded, plug-in-based, and currently
performs more than a thousand remote security checks.

              DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                   Page 8 

                 The application vulnerabilities identified in our scans of the MOE, which
                 NCSD uses for email service and access to NCPS Einstein data, include
                 those involving Microsoft applications, Adobe Acrobat, and Sun Java.
                 Operating system vulnerabilities we identified were related to the
                 Windows and Redhat Linux operating systems. As illustrated in Figure 4,
                 189 of the 202 unique high-risk vulnerabilities identified were related to
                 applications on the MOE, while the remaining 13 vulnerabilities were
                 identified as operating system vulnerabilities.

                 Figure 4: Application and Operating System Vulnerabilities




                 In The Top Cyber Security Risks, as reported by the SysAdmin, Audit,
                 Network, Security (SANS) Institute, addressing application vulnerabilities
                 that remain unpatched should be the number one priority for system
                 security personnel, administrators, and owners in 2010.8 According to
                 SANS data, the number of vulnerabilities being discovered in applications
                 is far greater than the number of vulnerabilities discovered in operating
                 systems.9 As a result, more exploitation attempts are recorded on
                 application programs, especially email attacks that exploit vulnerabilities
                 in commonly used software and programs such as Adobe and Microsoft
                 Office. Though application attacks are on the rise, operating system
                 attacks are still a security concern; more than 90% of operating system


8
  The SANS Institute is a well-known, cooperative research company that develops and maintains the
largest collection of research documents about various aspects of information security and operates the
Internet Storm Center, the internet’s early warning system.
9
  The SANS Institute’s conclusions are based on attack data from TippingPoint intrusion prevention
systems protecting 6,000 companies and government agencies, vulnerability data from scans of 9,000,000
systems compiled by Qualys, and additional analysis by key SANS faculty members and the Internet Storm
Center.

             DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                 Page 9 

   attacks involve buffer overflow vulnerabilities against Windows operating
   systems.

   The rationale for targeting a particular application or operating system
   often depends on factors including the prevalence of security
   vulnerabilities and the inability to effectively patch. Applying patches can
   reduce the number of vulnerabilities that may affect a system’s security
   posture. In addition, patches are produced and released to add or update
   features and address security vulnerabilities. The results of our
   vulnerability assessments revealed that NCSD is not applying timely
   security and software patches on the MOE. MOE application and
   operating system vulnerabilities that are not mitigated could compromise
   the Einstein data accessed through the system.

   DHS requires components to reduce vulnerabilities through vulnerability
   testing and management, the prompt installation of patches, and
   elimination or disabling of unnecessary services. In addition, according to
   the National Institute of Standards and Technology (NIST), security and
   software patches on operating systems and applications should be kept
   fully up-to-date.

   While NCSD performs vulnerability testing and has established a patch
   management process, the process is ineffective because the vulnerabilities
   identified are not being properly managed and mitigated in a timely
   manner on the MOE. According to NCSD, MOE application patches are
   currently being applied manually. Because of the difficulty in patching a
   large number of machines manually, patches are often not applied
   universally, to all computer systems on the network, in a timely fashion.
   Issues concerning NCSD’s MOE patching process, first identified during
   an April 2009 National Security Agency review, have not yet been
   addressed.

   NCSD’s difficulty and inability to timely deploy patches led to our
   discovery of a high number of application and operating system
   vulnerabilities that leave the MOE vulnerable to potential attacks. These
   vulnerabilities, if not addressed, could lead to arbitrary code execution,
   buffer overflow, escalation of privileges, and denial-of-service attacks.
   Additionally, since US-CERT analysts gain access to Einstein data via the
   MOE, the vulnerabilities may put sensitive Einstein data at risk.

   We discussed the vulnerabilities identified and provided NCSD system
   personnel with the technical results from our scans. Using this
   information, NCSD’s system personnel have begun taking actions needed
   to mitigate the vulnerabilities we identified.



DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 10 

   Recommendations
            We recommend that the NCSD Director:

            Recommendation #1: Mitigate the vulnerabilities identified
            during the audit to secure the operating systems and applications
            deployed on the MOE network.

            Recommendation #2: Implement a software management
            solution that will automatically deploy operating system and
            application security patches and updates on all MOE computer
            systems to mitigate current and future vulnerabilities.

   Management Comments and OIG Analysis
            NPPD concurred with recommendation 1. Based on NPPD’s
            response, NCSD has mitigated the identified vulnerabilities.
            NCSD performed a subsequent scan of the MOE network
            demonstrating this mitigation and will provide the OIG with a copy
            of the results.

            OIG Analysis

            We agree that the steps NCSD has taken satisfy this
            recommendation. This recommendation will remain open until
            NCSD provides documentation to support that all planned
            corrective actions are completed.

            NPPD concurred with recommendation 2. Prior to the OIG
            engagement, NCSD began the acquisition process for a software
            management solution. Following the acquisition process, NCSD
            began testing the system, which was deployed on June 30, 2010.
            NCSD will be demonstrating this system for the OIG for
            confirmation that responsive action has been taken.

            OIG Analysis

            We agree that the steps NCSD has taken satisfy the intent of this
            recommendation. This recommendation will remain open until
            NCSD provides documentation to support that all planned
            corrective actions are completed.




DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 11 

FISMA Requirements Are Not Being Met
      NCSD is not adhering to FISMA requirements in a number of areas.
      Specifically, the division has not properly developed or periodically
      updated the status of known security weaknesses for its cybersecurity
      program systems in its Plans of Action and Milestones (POA&M). In
      addition, NCSD has not established an information security training
      program to ensure that systems personnel and contractors receive adequate
      security awareness and specialized role-based training commensurate with
      their specific responsibilities.

      FISMA requires each agency to develop, document, and implement an
      agency-wide information security program to provide a high level of
      security for the information and information systems that support agency
      operations and assets. FISMA provides a comprehensive framework for
      ensuring the effectiveness of information security controls over
      information resources that support federal operations and assets. The act
      also provides for the development and maintenance of minimum controls
      required to protect federal information systems and serves as a mechanism
      for improved oversight of federal agency information security programs.
      Specifically, FISMA requires agencies to:

           •	 Periodically test and evaluate the effectiveness of information
              security policies, procedures, and practices.
           •	 Develop and implement a corrective action plan for information
              system vulnerabilities. This plan, known as a POA&M, is
              intended to serve as an authoritative management tool to address
              any security-related weaknesses and deficiencies.
           •	 Provide security awareness training to inform personnel, including
              contractors and other users of information systems, about the
              information security risks associated with their activities and their
              responsibilities in complying with agency policies and procedures
              designed to reduce these risks.

      According to DHS policy, all components must comply with FISMA
      requirements in establishing their information security programs, and
      managing and protecting sensitive systems.

      NCSD Has Not Developed POA&Ms for Known Vulnerabilities

      NCSD is not developing, updating, and tracking the remediation status of
      its vulnerabilities in POA&Ms for all known IT security weaknesses for
      the systems included in our audit. For example:

           •	 Although NCSD identified system and security weaknesses in the
              risk assessment conducted for NCPS Einstein, the POA&M was
   DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                      Page 12 

            not updated to include the vulnerabilities and weaknesses
            identified. Therefore, NCSD management has no way of knowing
            whether these weaknesses have been mitigated. Specifically, the
            risk assessment identified 12 vulnerabilities for Einstein, of which
            6 were not accepted risks. In compliance with FISMA and DHS
            requirements, the six known system security weaknesses should be
            documented and tracked in a POA&M.

        •	 We compared the results of our system vulnerability scans
           conducted on January 12, 2010, with the results of system scans
           NCSD conducted on July 1, 2009, for the MOE in Florida. In
           comparing the scanning results, we discovered several high risk
           vulnerabilities that were present on both scans, which indicated
           that known high risk vulnerabilities had been identified by NCSD
           and were present on the system for a 6-month period. NCSD
           should have captured these high risk vulnerabilities in a POA&M
           when they were identified. However, these vulnerabilities were
           not documented or tracked in a system POA&M, and therefore,
           had not yet been mitigated.

   POA&Ms provide a means to identify and resolve information security
   weaknesses and are used to capture and track security weaknesses in
   information systems. NCSD management may not be aware that system
   vulnerabilities and security weaknesses exist if they are not properly
   documented and captured in POA&Ms. Additionally, without this
   documentation, sufficient resources cannot be dedicated to address
   weaknesses within a reasonable timeframe. The proper documentation for
   tracking system vulnerabilities in the POA&Ms would help NCSD
   management ensure that known system and security vulnerabilities are
   mitigated.

   According to an NCSD management official, the POA&Ms for the MOE
   and NCPS Einstein were not updated to include system vulnerabilities and
   weaknesses identified due to poor communication between the technical
   individuals responsible for conducting vulnerability analyses and
   personnel responsible for creating POA&Ms. Without proper
   communication, a plan cannot be created and implemented to mitigate
   identified vulnerabilities, potentially putting the security of the systems
   and sensitive cybersecurity data at risk.

   NCSD Has Not Established a Formal Information Security Training
   Program

   NCSD has not established a process to ensure that systems personnel and
   contractors receive required security awareness training or adequate
   specialized role-based training commensurate with their specific

DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 13 

   responsibilities. Specifically, NCSD has not identified the required
   security courses or areas of focus for its system administrators and
   contractors. Furthermore, NCSD has not designated a coordinator to
   monitor personnel training and maintain records to ensure that its
   administrators, employees, and contractors receive security awareness
   training and specialized training that meets the specific needs for their
   roles and the division.

   NCSD management maintains that employees are responsible for
   determining their own training needs and maintaining training records.
   Though NCSD personnel have taken specialized training, a listing of
   specific required or recommended specialized training courses for systems
   personnel or contractors has not been developed.

   FISMA requires agencies to provide employees, contractors, and other
   users of information systems with security awareness training. This
   training should inform them about the risks associated with their activities
   when accessing government information systems and their responsibilities
   in complying with agency policies and procedures designed to reduce
   these risks. DHS requires components to establish an information security
   training program for its users of DHS information systems. Components
   are required to establish an overall policy for information security
   awareness, training, and education, which includes providing guidance on
   preparing and attending security awareness and training sessions.
   Component Chief Information Security Officers and Information Systems
   Security Managers are to ensure training and oversight for personnel with
   significant responsibilities for information security and maintain training
   records for system personnel and contractors. Furthermore, NIST
   recommends that management determine staff training needs, prioritize
   the use of training resources, and evaluate training effectiveness.

   Without a formal training process and management oversight, NCSD’s
   system administrators and contractors may not possess the professional
   qualifications required to administer the division’s systems. In addition,
   system personnel and contractors may not develop the skills/knowledge
   needed to maintain and improve system operations. Training will assist
   NCSD personnel in obtaining knowledge about current security threats,
   risks, trends, and mitigation techniques. NCSD cannot effectively execute
   its mission while protecting the integrity, confidentiality, and availability
   of information in today’s highly networked system environment without
   ensuring that each person involved understands their roles and
   responsibilities and is adequately trained to perform them.




DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 14 

   Recommendations
            We recommend that the NCSD Director:

            Recommendation #3: Create POA&Ms for known security
            vulnerabilities, assign appropriate resources, and monitor the
            progress of corrective actions until risks are mitigated.

            Recommendation #4: Establish an information security training
            process that includes developing a list of required and
            recommended courses for NCSD systems personnel and
            contractors, monitoring training taken, and maintaining course
            records. This should help to ensure that systems personnel and
            contractors receive security awareness training and specialized
            training commensurate with their roles and responsibilities.

   Management Comments and OIG Analysis
            NPPD concurred with recommendation 3. Although NCSD
            undertakes these activities, it will improve risk mitigation
            processes. The NCSD-Information Assurance (IA) team regularly
            initiates and tracks POA&Ms for each NCSD IT system. Findings
            that can be mitigated within a short amount of time (one week) are
            not uploaded onto Trusted Agent FISMA (TAF). However, where
            POA&M items cannot be mitigated within a short period, a waiver
            or exception is requested from NPPD’s Office of the Chief
            Information Officer and the action is included in the overall system
            POA&M. NCSD is improving its internal processes to ensure that
            POA&Ms are created after each scan, or when otherwise
            appropriate.

            OIG Analysis

            We agree that the steps NCSD plans to take satisfy the intent of
            this recommendation. This recommendation will remain open
            until NCSD provides documentation to support that all planned
            corrective actions are completed.

            NPPD concurred with recommendation 4. NCSD recognizes the
            value in identifying role-based training requirements for all
            employees and is developing a process to identify information
            security training requirements for NCSD employees.

            The types of training and certifications for which a process will be
            developed include training and requirements currently being met
            by NCSD personnel, such as the DHS-wide annual Security

DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 15 

               Education Awareness and Training requirement, which is already
               tracked and monitored by NPPD; the DHS-sponsored Critical
               Control Review and Document Review training; the CISSP Boot
               Camp; and Security Plus training, along with other role-based
               training.

               OIG Analysis

               We agree that the steps NCSD has taken, and plans to take, satisfy
               the intent of this recommendation. This recommendation will
               remain open until NCSD provides documentation to support that
               all planned corrective actions are completed.

System and Program Documentation Has Not Been Reviewed or
Approved
      NCSD’s information systems security management staff has not reviewed
      and approved required system certification and accreditation
      documentation, or the division’s policies and standard operating
      procedures (SOP) for its cybersecurity program. In addition, the Fiscal
      Year (FY) 2010 annual system self-assessments conducted for the
      division’s cybersecurity systems are incomplete.

      NCSD’s Information Systems Security Manager is to review and approve
      system documentation prior to certifying it for accreditation by the
      Designated Approving Authority. Division and program system security
      policies and procedures should not be implemented until they have been
      approved by the appropriate management officials. Appropriate policies,
      procedures, and system certification and accreditation security
      documentation should be completed and approved to efficiently execute
      the NCPS Einstein program and secure the cybersecurity program
      systems.

      NCSD has drafted all documentation required for the certification and
      accreditation of its cybersecurity program systems. However, a significant
      amount of this documentation has not been reviewed or approved by
      management. Documents in draft form include the system security plans
      (SSP) and security test and evaluations (ST&E) for all four of the
      cybersecurity program systems included in our audit; the HSIN/US-CERT
      Portal Contingency Plan; and the NCPS Public Web Security Assessment
      Report and Contingency and Disaster Recovery Plan. In addition, division
      and program procedures and policies for discretionary access control,
      incident handling and reporting, and data management have not been
      reviewed or approved by management.



   DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                      Page 16 

   Furthermore, though NCSD has drafted its FY 2010 annual self-
   assessments for the cybersecurity program systems, the supporting
   documentation for these assessments is incomplete. For example, the
   assessments do not contain information regarding the system environment
   or stipulate the regulations, laws, and policies related to the systems.
   Required appendices for system acronyms, definitions, and references
   have not been completed. In addition, the list of interconnected systems in
   the NCPS Einstein annual self-assessment is outdated.

   DHS requires that risk assessments, SSPs, and ST&Es for the certification
   and accreditation package be approved by the system owner and agreed to
   by the certifying official before a system is certified and accredited.
   Components are to periodically test the security of implemented systems,
   and Information Systems Security Managers are required to validate all
   component information system security reporting. Component personnel
   must review ISAs as part of their annual self-assessment.

   According to an NCSD official, management turnover has caused a delay
   in getting program and system documentation reviewed and approved. As
   a result, system certification and accreditation documentation, as well as
   NCSD’s policies and SOPs, have not been reviewed to determine whether
   they are adequate and in compliance with DHS requirements. As a result,
   management cannot ensure that policies/procedures and security controls,
   when implemented, will allow for the efficient execution of NCSD
   operations and the NCPS Einstein program, or that its cybersecurity
   program data and systems are adequately secured.

   Recommendations
            We recommend that the NCSD Director:

            Recommendation #5: Review and approve program and system
            documentation for its cybersecurity program.

            Recommendation #6: Update the annual system self-assessments
            for the division’s cybersecurity systems to include all system
            information and complete the appendices according to DHS
            requirements.

   Management Comments and OIG Analysis
            NPPD concurred with recommendation 5. SOP and Certification
            and Accreditation (C&A) documents for NCSD IT systems
            undergo several reviews before uploaded into TAF. C&A
            documentation is reviewed and approved at various levels
            beginning with the network manager, system owner, and the

DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 17 

            NCSD Information System Security Officer. Once C&A
            documents are uploaded into TAF, the NPPD Information System
            Security Manager, NPPD Designated Accrediting Authority, and
            DHS Headquarters provide validation, which signifies approval.
            SOPs are developed either by the operations or IA team, and are
            coordinated with both teams prior to being sent to the Logistics
            Lead for senior leadership coordination, approval, implementation,
            and maintenance. Going forward, SOPs will clearly indicate date
            of approval and will include the signature of the appropriate team
            lead (either operations or IA, as appropriate). NPPD and NCSD
            will improve the documentation of these reviews, approvals and
            validations.

            OIG Analysis

            We agree that the steps NCSD is taking, and plans to take, satisfy
            the intent of this recommendation. This recommendation will
            remain open until NCSD provides documentation to support that
            all planned corrective actions are completed.

            NPPD concurred with recommendation 6. In accordance with
            DHS Sensitive System Handbook 4300A Section 3.9.12, requiring
            completion of annual assessments, and further described in the
            DHS Fiscal Year 2010 DHS Information Security Performance
            Plan (October 1, 2009), NCSD completes annual assessments in
            accordance with DHS requirements, which are established by the
            DHS Chief Information Security Officer. As required, NCSD’s
            annual assessments for all NCPS systems, which include the MOE,
            EINSTEIN, the US-CERT, and HSIN portals, and US-CERT’s
            public website, were approved and validated by the end of
            February 2010. NCSD however will update its system self-
            assessments to include missing system information and completed
            appendices.

            OIG Analysis

            We agree that the steps NCSD plans to take satisfy the intent of
            this recommendation. This recommendation will remain open
            until NCSD provides documentation to support that all planned
            corrective actions are completed.




DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 18 

        NCSD Is Not Fully Complying with DHS Policies
                NCSD is not fully complying with DHS policies governing sensitive
                systems. Specifically, the division is not complying with DHS Sensitive
                Systems Policy Directive 4300A criteria for firewall testing, Secure
                Baseline Configuration Guides (SBCG), and physical security of server
                rooms. DHS Sensitive Systems Policy Directive 4300A provides baseline
                policies, standards, and guidelines for DHS components. It provides
                direction to managers and senior executives for managing and protecting
                sensitive systems. The policies and direction contained in the directive
                apply to all DHS components.

                Firewall Testing

                NCSD is not adhering to DHS Directive 4300A requirements for firewall
                testing. DHS 4300A requires that all components conduct quarterly
                firewall tests to ensure that firewall configurations are properly applied to
                all systems. According to NCSD systems personnel, firewall tests were
                conducted on the cybersecurity program systems included in our audit.
                However, NCSD was unable to provide us with the dates that the firewalls
                were last tested or documentation to support that firewall tests were
                conducted. NCSD cannot ensure that firewalls are operating properly to
                protect systems from unauthorized access attempts if it does not
                adequately test firewall configurations.

                SBCG Criteria

                NCSD is not following the DHS SBCGs. Instead, the division uses the
                Defense Information Systems Agency (DISA) Security Technical
                Implementation Guides (STIGS) to configure its systems’ hardware and
                software components.10 NCSD has hardened its routers, servers, and
                workstations for its cybersecurity program systems based on the STIGs.
                However, we identified a few instances of noncompliance in areas related
                to password management, logon settings, event logging, port management,
                service management, and shutdown procedures. It is important for
                components to follow the proper hardening guides to ensure that systems
                and devices are securely configured throughout the department, and data is
                protected according to department policies.

                We discussed areas of noncompliance with NCSD’s system personnel.
                Since conducting our evaluation of NCSD’s compliance with the SBCGs,
                management has taken actions to ensure that system configuration settings
                are aligned with DHS requirements.

10
   DHS’ SBCGs are constructed from configuration management policies in the STIGS, along with
standards from NIST and Microsoft.

             DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                Page 19 

   Server Room Security

   Generally, the facilities housing cybersecurity program systems equipment
   are secure. Still, system personnel responsible for the HSIN/US-CERT
   Portal can improve security by conducting formal inspections of offices
   and areas housing system equipment as required by DHS. These
   inspections can ensure that physical security safeguards are working
   properly and policies are being followed to protect systems from threats
   associated with the physical environment and prevent unauthorized access,
   disclosure, destruction, or modification.

   Further, to avoid potential damage to equipment that is critical in carrying
   out DHS’ cybersecurity program, NCSD needs to establish a policy and
   procedures that can be taken when the temperature and humidity inside its
   server rooms, which are operational 24 hours a day/7 days a week, fall
   outside of the department’s acceptable range. DHS requires the
   temperature in server rooms to be between 60 and 70 degrees, while the
   humidity should be between 35% and 65%. When we conducted a
   physical security evaluation of the NCPS Einstein system in Florida, on
   February 23, 2010, the four computer consoles in the server room
   recorded temperatures of 40 degrees, 75 degrees, 77 degrees, and 82
   degrees. The humidity in the server room was 78%.

   According to NCSD system personnel, the temperature was high because
   the “chiller” was not operational. According to management, the “chiller”
   was repaired February 24, 2010. During this time, the climate changes in
   NCSD’s server room in Florida could have potentially put NCPS Einstein
   data at risk.

   When the temperature and humidity readings of equipment in the server
   room rise above the normal range required by DHS, industry best practices
   recommend that the equipment be shut down until climate issues are
   resolved. Shutting down the equipment would prevent the danger of the
   equipment overheating or malfunctioning.

   Recommendations
            We recommend that the NCSD Director:

            Recommendation #7: Conduct and document quarterly firewall
            testing to ensure that cybersecurity program systems are protected
            from possible unauthorized access attempts.

            Recommendation #8: Implement DHS baseline configuration
            settings on its routers, servers, and workstations for its
            cybersecurity program.

DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 20 

            Recommendation #9: Conduct and document physical security
            inspections of offices and areas housing system equipment
            according to DHS policy. This will help to ensure that physical
            security safeguards are working properly and policies are being
            followed.

            Recommendation #10: Establish a policy and institute procedures
            that can be taken to prevent potential damage to DHS equipment
            when the temperature or humidity inside server rooms fall outside
            of the department’s acceptable range.

   Management Comments and OIG Analysis
            NPPD concurred with recommendation 7. NCSD tests firewalls at
            least quarterly, but agrees that a documentation process will allow
            better management oversight of such testing. An SOP for firewall
            testing has been developed and a copy was provided to the OIG.

            OIG Analysis

            NCSD provided a copy of the signed SOP on July 9, 2010. The
            documentation provided satisfies the intent of this
            recommendation. We consider this recommendation resolved and
            closed.

            NPPD concurred with recommendation 8. DHS baseline
            configuration settings are now implemented across NCSD’s
            systems. Consistent with DHS Sensitive System Handbook
            4300A, Section 4.8.4, DHS SBCGs provide a minimum baseline of
            security. That is the basis upon which NCSD’s equipment is
            prepared for deployment. Section 4.8.4 allows DHS Components
            to “implement more onerous configuration guides” and, to that
            end, NCSD relies upon the DISA STIGs to supplement
            configuration settings. The STIGs are used as an automated tool
            for configuration management.

            OIG Analysis

            We agree that the steps NCSD has taken satisfy the intent of this
            recommendation. This recommendation will remain open until
            NCSD provides documentation to support that all planned
            corrective actions are completed.

            NPPD concurred with recommendation 9. Such inspections
            generally are already conducted and documented, and NCSD will

DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 21 

            work with its partners to ensure that this practice is followed and
            documented at each office and for area housing system equipment.

            OIG Analysis

            We agree that the steps NCSD plans to take satisfy the intent of
            this recommendation. This recommendation will remain open
            until NCSD provides documentation to support that all planned
            corrective actions are completed.

            NPPD concurred with recommendation 10. DHS Sensitive System
            Handbook 4300A, Section 4.2.1.8, directs DHS components to
            consider maintaining a temperature range between 60 and 70
            degrees and humidity levels between 35% and 65% when
            developing a strategy for temperature and humidity control. The
            handbook further recommends checking individual system
            documentation for the proper temperature and humidity levels.
            NCSD will establish a temperature and humidity policy, which
            incorporates DHS and equipment manufacturer guidance, and the
            division will institute procedures to take when temperature or
            humidity is out of tolerance.

            OIG Analysis

            We agree that the steps NCSD plans to take satisfy the intent of
            this recommendation. NCSD’s policy should be updated once a
            backup site for operations has been established. This
            recommendation will remain open until NCSD provides
            documentation to support that all planned corrective actions are
            completed.




DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                   Page 22 

Appendix A
Purpose, Scope, and Methodology

             The objective of our audit was to determine whether adequate physical
             and logical access controls are in place to secure the cybersecurity
             program systems utilized by US-CERT and safeguard the data collected
             and disseminated by US-CERT. Specifically, we:

                  •	 Determined what and how cybersecurity data is collected and
                     maintained by US-CERT.
                  •	 Evaluated the adequacy of physical security controls implemented
                     to protect NCSD’s cybersecurity program systems.
                  •	 Determined whether US-CERT has implemented effective system
                     security controls to safeguard the confidentiality, integrity, and
                     availability of cybersecurity data.
                  •	 Determined whether the system documentation for DHS’
                     cybersecurity program systems has been completed in compliance
                     with DHS and FISMA requirements.

             Our audit focused on the requirements outlined in Homeland Security
             Presidential Directive 7, Critical Infrastructure Identification,
             Prioritization, and Protection; OMB M-08-05, Implementation of Trusted
             Internet Connections (TIC); NIST Special Publication (SP) 800-16,
             Information Technology Security Training Requirements: A Role and
             Performance-Based Model; NIST SP 800-53, Recommended Security
             Controls for Federal Information Systems and Organizations; NIST SP
             800-94, Guide to Intrusion Detection and Prevention Systems; NIST SP
             800-115, Technical Guide to Information Security Testing and
             Assessment; FISMA; Government Performance Results Act of 1993; DHS
             Sensitive Systems Policy Directive 4300A; DHS 4300A Sensitive Systems
             Handbook; DHS Windows Server 2003 SBCG; DHS Linux SBCG; DHS
             Windows XP SBCG; and DHS CISCO Router SBCG.

             We reviewed and evaluated NCSD’s SOPs, policies, and guidelines,
             including NCSD’s discretionary access control policy, interconnection
             security agreements, and memorandums of agreement. We also reviewed
             system certification and accreditation documentation, including POA&Ms
             for the MOE, NCPS Einstein, HSIN/US-CERT Portal, and NCPS Public
             Web, for compliance with applicable OMB, NIST, and DHS guidance.

             We interviewed selected personnel from NCSD and US-CERT, including
             NCSD program management officials; Information System Security
             Officers; Physical Facility Security Managers; system administrators; and
             contractor personnel. We conducted physical security evaluations at
             contractor facilities in Florida and Virginia, and at NCSD headquarters.
             Furthermore, we performed detailed vulnerability assessments to evaluate
             the effectiveness of the system security controls implemented, reviewed
             system configuration requirements, and verified account management and
          DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 



                                             Page 23
 

Appendix A
Purpose, Scope, and Methodology

             access control procedures for NCSD’s cybersecurity program systems
             (MOE, NCPS Einstein, HSIN/US-CERT Portal, and NCPS Public Web).
             We reviewed NCSD’s vulnerability assessments and compared them with
             our own assessments to determine whether known systems and security
             vulnerabilities had been mitigated.

             We conducted this performance audit at NCSD headquarters and
             contractor facilities in Florida, Pennsylvania, and Virginia between
             January 2010 and May 2010 pursuant to the Inspector General Act of
             1978, as amended, and according to generally accepted government
             auditing standards. Those standards require that we plan and perform the
             audit to obtain sufficient, appropriate evidence to provide a reasonable
             basis for our findings and conclusions based upon our audit objectives.
             We believe that the evidence obtained provides a reasonable basis for our
             findings and conclusions based upon our audit objectives. Major OIG
             contributors to the audit are identified in Appendix C.

             The principal OIG points of contact for the audit are Frank Deffer,
             Assistant Inspector General, IT Audits, at (202) 254-4100, and
             Chiu-Tong Tsang, Director, Information Security Audit Division, at
             (202) 254-5472.




          DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                             Page 24 

Appendix B
Management Comments to the Draft Report


                                                                                      Offt~ ,,/the fllt/k, S«r"",y
                                                                                      l'l6tidnal PrlJtecfi"n and PlVN'''_ IJirm<m1U
                                                                                      II.S. Otp.r1mtn, of Ilnmtbnd St<",i",
                                                                                      W•• hiR~IOR. DC 20528



                                                                                  "r~.          Homeland
                                                        JUL 30 1010               9             Security

        MEMORANDUM TO:                    Frank Deffer
                                          Assistant Inspector General

        FROM:                             Rand Beers   fl AA
                                          Undcr Secret;;:;: V     ~

        SUBJECT:                          Response to Office oflnspcctor General Draft Repon "OIlS Needs /0
                                          ImprOl'e lhe Securil)' POSlllre ojils ('y~rsec/lrily Program Systems"


        This correspondence responds to yOUf Jtule 11,2010 memorandum requesting that the National
        Prottx:tion and Progmms Directomte (NPPD) provide comments on the Office oflnspcctor General
        (OIG) draft report titled DHS Needl' lu {tl/Prl)l"(' the Sec/lrity !'oslllre ojits CyberseCllrily Progroll1
        Systems.

        Responses to the ten recommendations dirceted to NPI'J) arc set forth below. Technical
        comments arc being provided under separate cover. Questions concenting speeific comments
        should be addressed to Michael McPoland, J)il\.~tor, NPPD GAO-OlG Audit Liaison Office at
        (703)235-2175.

        Recommendation I: Ensure "wtrhe lIIllnerobililies identified during the audil are mi/igmed 10
        secllre the operating sys/elll.f and applica/iollS deployed on Ihe MOE ne/work.

        Response: NPPD concurs with this recommendation and the National Cyber Security Division
        (NCSD) has mitigated the identified vulnembilities. NPPD believes this recommendation should
        be closed. A subsequent scan of the Mission Operating Environment (MOE) network
        dcmonstmting this mitigation is being delivered to OIG.

        Recollllllendation 2: ItnlJ!emenlll .WJfiwure IIlIlIll/gemenl .I·o/lliion {hili will alltomatically deploy
        operating system and application securily patches and updales 011 oil MOE campI/IeI' .1)'.I"lem.l' /0
        mitigate cllrrem andjll/ure vulnerabilities.

        Response: NPPD concurs with this recommendation. Prior to this OIG engagement, NCSD
        began the acquisition process for such a software management solution. Following the
        acquisition process. NCSD began testing the system, which was deployed on June 30. 2010.
        NCSD is demonstmting this system to OIG for confirmation that responsive action has been
        taken.




          DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 



                                                         Page 25
 

Appendix B
Management Comments to the Draft Report




        Recommendation 3: Create POA&Msfor known security vulnerabilities, assign appropriate
        resources, and monitor the progress ofcorrective actions until risks are miligaled

        Response: NPPD concur' with this recommendation. Although CSD undertakes these
        activities, it will improve risk mitigation processes. The NCSD-Infonnation Assurance (IA)
        team regularly initiates and tracks Plan of Action and Milestones (POA&Ms) for each NCSD
        information technology system. Findings that can be mitigated within a short amount of time
        (one week) are not uploaded onto Tru ted Agent FISMA (TAF). However, where POA&M
        items cannot bc mitigatcd within a short period, a waiver or exception is requested from the
        NPPD's Office of the Chief Infonnation Officcr and the action is included in the overall system
        POA&M. CSD is improving its internal processes [0 ensure that POA&Ms are created after
        each scan or when otherwise appropriate.

        Recommendation 4: Establish an informalion securily training process that includes
        developing a list ofrequired and recommended courses for NCSD systems personnel and
        contractor, monitoring training laken, and maintaininf{ course record' to ensure that systems
        per onnel and contraclor receive security awareness training and specialized training
        commenSllrale with their roles and responsibilities.

        Response: NPPD concurs with this recommendation. CSD recognizes the value in identifying
        role-based training requirements for all employees and is developing a process to identify
        information security training requirements for CSD employees.

        The types of training and certifications for which a process will be developed include training
        and requirements currently being met by NCSD personnel, such as the Department of Homeland
        Security (DHS)-wide annual Security Education Awareness and Training (SEAT) requirement
        which is already tracked and monitored by NPPD; the D1-IS- ponsored Critical Control Review
        and Document Review training; the CISSP Boot Camp; and Security Plus training, along with
        other role-based training.

        Recommendation 5: Ensure that program and .Iystem docl/mentation/or ils cybersecurily
        program systems is reviewed and approved.

        Response: PPD concur with this recommendation. Standard operating procedures and
        Certification and Accreditation (C&A) documents for CSD IT Systems undergo several
        reviews before being uploaded into TAF. C&A documentation is reviewed and approved at
        various levels beginning with the network manager, system owner and the CSD Information
        Systems Security Officer. Once C&A documents are uploaded into TAF the PPD Information
        System Security Manager (IS M) NPPD Designated Accrediting Authority and DHS
        Headquarters provide validation, which 'ignifics approval. Standard Operating Procedures
        (SOPs) are developed either by the operations or JA team and are coordinated with both teams
        prior to being sent to the Logistics Lead for sellior leadership coordination approval
        implementation and maintenance. Going forward SOPs will clearly indicate date of approval
        and will include the signature of the appropriate team lead (either operations or lA, as
        appropriate). PPD and C D will improve the documentation of these reviews, approvals and
        validations.


                                                                                                          2




          DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                   Page 26 

Appendix B
Management Comments to the Draft Report




        Recommendation 6: EnSllre Ihe annual ~ysleJII self-assessmenls for Ihe division's cybersecllrily
        systems are updated to include all system in/ormation and that appendices are completed
        according to DJ-lS requirements.

        Response: PPD concurs with this recommcndation. In accordance with DHS Sensitive System
        Handbook 4300A Section 3.9.12, requiring completion ofannual assessments and further de cribcd
        in the DHS Fiscal Year 2010 DHS Infonnation Security Perfonnance Plan (October 1 2009) NCSD
        completes aJUlual assessments in accordance with DHS requirements which are established by the
        DHS Chief Information Security Officer. As required, CSD's annual asse ments for all alional
        Cybersecurity Protection System CPS) systems which include the MOE, EINSTEIN, the US-
        CERT aJld Homeland Security [nfonnation elwork portals, aJld S-CERT's public website, were
        approved aJld validated by the end of Febmary 20 IO. C D however will update its system self-
        asscssm nts to include missing system infommtion and completed appendices.

        Recommendation 7: En ure quarlerlyfirewall testing is conducted and documented to ensure
        that cyber ecurily program systems are prolectedfrom possible unauthorized access affempts.

        Response: NPPD concurs with this reconunendation. C D tests firewalls at least quarterly but
        agrees that a documentation process wiH allow better management oversight of such testing. A
        standard operating procedure for firewall testing has been developed and a copy was provided to the
        OIG.

        Recommendation 8: Ensure that DHS baseline configuration set/ings are fully implemented on
        ils roulers, servers, and workslations/or its cybersecurily program.

        Response: NPPD concurs with thi recommendation. DH baselin configuration settings are now
        implemented across CSD s systems. Consistent with DHS Sensitive System HaJldbook 4300A,
        Scction 4.8.4 DHS Sccure Baseline Configuration Guides provide a minimLUn baseline of security.
        That is the basis upon which CSD s equipment is prepared for deployment. ection 4.8.4 allows
        DES Components to "implement more onerous configuration guides" aJld, to that end, CSD relies
        upon the Defcnse lnfomlation Systcms Agency's ecurity Technical Implementation Guides (OISA
        STIGs) to supplement configuration settings. The STIGs are used as all automated tool for
        configuration mallagemenl. In fact since automated tools are required for use by DHS, based on
        NISI 800-53, Rev 3 Control CM-2 and Control Enhancement (2) and the DHS baseline guides
        provide only a manual checklist use of the OISA TIGs is preferred.

        To ensure that this practice is more clearly articulated, NCSD will reflect it in its configuration
        SOP.

        Recommendation 9: Conduci and document physical security impections ofoffices and areas
        housing syslem equipmenl according {o DHS poticy, at all locations, 10 ensure Ihat physical
        security safeguards are working properly and policies are being/allowed.




                                                                                                              3




          DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                      Page 27 

Appendix B
Management Comments to the Draft Report




        Response: PPD concurs with this reconunendation. Such inspections generally are already
        conducted and documented, and CSD will work with its partners to ensure that this practice is
        followed and documented at each office and for area housing system equipment.

        Recommendation to: £Slab/ish a policy and inslilllle procedllres Ihan can be taken to prevent
        pOlenlial damage to OHS equipment iflhe telllperalure and/or humidify inside server roomsfal!
        olllside ofthe department's acceplable range.

        Response: PPD concurs with this recommendation. DHS Sensitive System Handbook 4300A,
         ection 4.2.1.8, directs DHS components to consider maintaining a temperature range between 60 and
        70 degrees and humidity levels between 35% and 65% when developing a strategy for temperature
        and humidity control. The handbook further recommends checking individual system documentation
        for the proper temperature and humidity levels. NCSD will establish a temperature and humidity
        policy which incorporates DBS and equipment manufacturer guidance and the division will institute
        procedures to take when temperature or htuuidity is out of tolerance.

        Thank you for the opportunity to review and comment on this draft report. We look forward to
        continuing this partnership in the future.




                                                                                                         4




          DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 


                                                     Page 28 

Appendix C
Major Contributors to This Report

                      Information Security Audit Division

                      Chiu-Tong Tsang, Director
                      Barbara Bartuska, IT Audit Manager
                      Charles Twitty, Senior Auditor/Team Lead
                      Bridget Glazier, IT Auditor
                      Thomas Rohrback, IT Specialist
                      David Bunning, IT Specialist

                      Erin Dunham, Referencer




          DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 



                                             Page 29
 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Deputy Under Secretary, NPPD
                      Assistant Secretary, Cyber Security and Communications
                      Chief Information Officer
                      Chief Security Officer
                      Chief Information Security Officer
                      Director, NCSD
                      Deputy Director, NCSD
                      Director, Network Security Development, NCSD
                      Deputy Director, US-CERT
                      Chief Information Officer, NPPD
                      Director, IT Security, NPPD
                      Director, Departmental GAO/OIG Liaison Office
                      Director, Compliance and Oversight Program
                      Deputy Director, Compliance and Oversight
                      Audit Liaison, NPPD
                      Audit Liaison, NCSD
                      Audit Liaison, Chief Information Officer
                      Audit Liaison, Chief Information Security Officer
                      Director, Information Security Audit Division
                      IT Audit Manager, Information Security Audit Division

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




          DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems 



                                             Page 30
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
